                                        STATEMENT BY

                                   JOHNNIE E. FRAZIER
                                  INSPECTOR GENERAL
                            U.S. DEPARTMENT OF COMMERCE

                              BEFORE THE
              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS
                   COMMITTEE ON ENERGY AND COMMERCE
                       HOUSE OF REPRESENTATIVES

                                         AUGUST 3, 2001



Mr. Chairman and Members of the Committee, I am pleased to appear before you today to

discuss the Office of Inspector General’s (OIG) work and other activities related to the security

and protection of the Department’s critical information technology (IT) systems, programs, and

activities.



The Department of Commerce has numerous complex computer systems that provide essential

services to the public and support critical mission activities, such as the nation’s weather

services, environmental stewardship, promotion of trade and economic growth, scientific

research, and technological development. As the Department’s systems have become more

interconnected, vulnerabilities have also increased, thus increasing the need to continuously

improve IT security measures. Strong IT security measures are vital to (1) protecting the privacy

of information, (2) safeguarding the integrity of computer systems and their networks, and



                                                  1
(3) ensuring the availability of services to the American public and other users. I cannot

emphasize too much how important these measures are.



Indeed, in our recent Semiannual Reports to the Congress, we have identified “Strengthening

Department-wide Information Security” as one of the top 10 management challenges facing the

Department of Commerce because of that issue’s:



1.     Importance to the Department’s mission and the nation’s well-being,

2.     Complexity and sizable expenditures, and

3.     Need for significant management improvements.



During the past year, we have engaged in a number of audit, inspection, evaluation, and other

activities involving Commerce IT security matters—all aimed at strengthening IT security

Commerce-wide. We have completed evaluations of the Department’s efforts to implement its

Critical Infrastructure Protection (CIP) plans. We also have assessed the Office of the Chief

Information Officer’s (CIO) IT security policy and the effectiveness of its oversight of the

Department’s IT security program. In addition, we have evaluated the use of persistent Internet

“cookies” and “web bugs” on Commerce Internet sites. Furthermore, in support of the OIG’s

fiscal year 2000 financial statement audits, we have conducted security reviews of the

Department’s financial management systems and their related networks.



Moreover, assessments of IT security policies and practices are often an integral part of the

operational inspections we conduct of Commerce activities, units, and offices domestically and

overseas. These inspections are intended to provide operating unit managers with useful, timely

information about their operations, including IT security issues. IT security problems have also


                                                 2
been identified through our investigative work. In addition, we have worked closely with many

of the Department’s key IT managers, top security personnel, and senior program officials in an

effort to identify the most critical IT security issues and help craft corrective measures. Let me

briefly summarize the results of some of our recent efforts.



Early Progress Made in Critical Infrastructure Protection,

but Planning and Implementation Have Slowed



Last year, we evaluated the Department's CIP plan, identification of minimum essential

infrastructure (MEI) assets, and vulnerability assessments of its cyber-based assets. MEI assets

are the physical and cyber-based assets essential to the minimum operations of the economy and

the government. Our evaluation found that although the Department had made initial progress by

developing a Department-wide CIP plan, identifying critical infrastructure assets, and initiating

vulnerability assessments, there were several areas that warranted management attention:



•      The Department's CIP plan needed to be strengthened because several of its elements

       were outdated or missing, and important milestones had slipped. The asset inventory,

       vulnerability assessment framework, and budget estimates included in the plan were not

       current. The plan also did not include requirements for reviewing new assets to

       determine whether they should be included as MEI assets, periodically updating

       vulnerability assessments, or developing a system for responding to infrastructure attacks.



•      The MEI asset inventory needed to be reevaluated because of limitations in data

       gathering. In most cases, asset managers were neither interviewed nor given adequate


                                                 3
       guidance before filling out complex questionnaires used to gather asset information, and

       the officials most knowledgeable about the assets were seldom interviewed because of

       logistical problems and limited resources. Establishing a reliable MEI inventory is

       important because it forms the basis for later activities, such as selecting the highest risk

       assets for vulnerability assessments and taking remedial actions.



•      Vulnerability assessments, remediation plans, and budget justifications needed to be

       completed. Reportedly due to resource constraints, the Department had current

       vulnerability assessments for less than 10 percent of MEI assets and had not developed

       any remediation plans.



The CIO’s office agreed with our findings and stated that the Department's focus would be on the

broad spectrum of IT security, which emphasizes assets critical to the Department's mission and

includes most cyber-based MEI assets. Short-term actions were identified to improve guidance

to operating unit personnel involved in vulnerability assessments and increase their involvement

in the MEI asset inventory, revise the MEI asset list, and evaluate new assets to determine

whether they should be included as MEI assets.



Additional Focus Needed on

IT Security Policy and Oversight



The CIO is responsible for developing and implementing a departmental IT security program to

ensure the confidentiality, integrity, and availability of information and IT resources. The CIO’s

responsibilities include developing policies, procedures, and directives for IT security and

providing oversight of the IT security programs of the Department's operating units.

                                                 4
We conducted an evaluation to assess the CIO’s policies and the effectiveness of his oversight of

the Department's IT security program. Our review focused on the CIO’s compliance with laws

and regulations governing IT security and his actions in recent years to oversee the Department's

IT security program.



We found that although in the past IT security did not receive adequate attention, in more recent

years, the CIO's office had expanded its focus on and increased the resources devoted to IT

security. For example, the office conducted its first Department-wide assessment of IT security

planning in 1999 and reviewed operating unit self-assessments in 2000, which resulted in

increased compliance with security requirements. Nevertheless, policy and oversight need

further improvements. Specifically:



•      IT security policy needs to be revised and expanded. The Department's IT security

       policy is out of date because it was developed in 1993 and 1995, prior to a significant

       revision of OMB Circular A-130, which communicates policy on the security of federal

       automated information resources. The policy is also missing important components

       because it has not kept pace with recent trends in technology and related security threats.

       The Department's policy must be kept current and complete because the operating units

       use it as the foundation for their general and system-specific policies. We recommended

       that the CIO’s office update and expand its IT security policy as soon as possible.



•      Additional IT security compliance procedures are needed. Security for many of the

       Department's systems has not been adequately planned, and security reviews have not

       been performed. In addition, several operating units do not have adequate awareness and

                                                5
       training programs or adequate capabilities for responding to IT security incidents. The

       Government Information Security Reform Act (GISRA) requires the CIO’s office to

       conduct annual IT security evaluations in 2001 and 2002 similar to the self-assessments it

       monitored in 2000. We recommended that the office commit to a program of reviews

       that extends beyond GISRA’s 2-year review requirement. Moreover, the CIO’s office

       should work with the Department's acquisition and budget managers to ensure that IT-

       related procurement specifications include security requirements, and that funds for

       meeting these requirements are included in operating unit budgets.



During our evaluation of the Department’s IT security policy, we provided the Department with a

written analysis that identified weaknesses and deficiencies in the policy, and made

recommendations for specific changes to bring the policy into compliance with applicable laws

and regulations.



The CIO’s office agreed with all of our recommendations and cited a number of corrective

actions it planned to take to implement them. Among other things, it agreed to revise, expand,

and update the Department's IT security policy; continue its compliance review program beyond

the 2-year period required by GISRA; and begin security reviews as soon as possible.



Use of Internet “Cookies” and “Web Bugs”

Raised Privacy and Security Concerns



We evaluated the use of persistent Internet cookies and web bugs by departmental Internet sites,

as well as the adequacy of the privacy statements posted on the main web pages of the

Department and its operating units. We conducted our evaluation in response to Public Law 106-

                                                6
554, the Consolidated Appropriations Act of 2001, which required the Inspector General of each

agency to submit a report to the Congress disclosing any activity regarding the collection of

information relating to any individual's access or viewing habits on the agency's Internet sites.



Persistent Internet cookies are data stored on web users' hard drives that can identify users'

computers and track their browsing habits. Web bugs are software code that can monitor who is

reading a web page. These technologies are capable of being employed in ways that could

violate the privacy of individuals visiting the Department’s web sites and can also pose security

threats.



Web bugs are considered security threats because they can perform malicious actions, including

searching for the existence of specific information, such as financial information, on a user's hard

drive, and downloading files from, or uploading files to, a user's computer. A web user would be

unaware of the presence of web bugs without using detection software. Even if such software

were used, the malicious actions performed by identified web bugs could go undetected.



We found that most of the Department's Internet sites do not use either persistent cookies or web

bugs. However, we did find several instances in which persistent cookies were being used

without a compelling reason or the approval of the Secretary, as required by Department and

OMB policy. We also found a number of web pages using web bugs. At the time we began our

evaluation, the Department did not have a policy regulating web bug use, but it promptly

developed and issued one when informed of the problem. Finally, we found that many of the

operating units' privacy statements did not provide all of the information required by the

Department's privacy policy.



                                                  7
We recommended that the Department's CIO direct operating unit CIOs and senior management

to implement a strategy to control the use of persistent cookies and web bugs and to certify

annually that the operating unit is in compliance with the Department's applicable policies. We

also recommended that the CIO direct operating unit CIOs and senior managers to revise their

privacy policy statements to make them compliant with the Department's policy. The CIO’s

office agreed with our findings and worked with us to help ensure that the cookies we had

identified were removed. The Secretary of Commerce’s new Special Assistant for Privacy is

working to remove all web bugs and develop a uniform privacy policy statement.



Systems Security Audits of Departmental

Financial Management Systems Reveal Problems



Our audits of Commerce operating units’ financial statements, performed by certified public

accounting (CPA) firms under contract with us, include security reviews of the Department’s

financial management systems and related networks that support the statements. Our CPA

contractors use GAO’s Federal Information System Controls Audit Manual (FISCAM) as a guide

in performing these reviews. FISCAM provides guidance on assessing the reliability of

computer-generated data that supports financial statements, including physical security and

logical access controls designed to prevent or detect unauthorized access or intrusion into

systems and networks.



In 1999 we adopted a systems security review strategy that provides for full coverage of each

financial management system and its related networks on a two-year basis. Every two years, a

review addresses the six systems security areas identified in FISCAM: (1) entitywide security

program planning and management, (2) access controls, (3) application software development

                                                 8
and change control, (4) systems software, (5) segregation of duties, and (6) service continuity. In

the alternate years, we routinely conduct penetration testing (in which someone playing the role

of a hostile attacker tries to compromise systems security) and application-level testing. Review

of the system environment for significant changes and follow-up on open recommendations

occurs annually.



The audits of operating units’ individual fiscal year 2000 financial statements included reviews

of the general system controls over the major financial management systems at the seven data

processing locations. In the reports on our audits of the Department’s fiscal year 1999 and 2000

consolidated financial statements, we noted that these systems security reviews disclosed

weaknesses in controls over major financial management systems at all seven locations that

provide data processing support. Specifically, these reviews found that:



1.     Entitywide security program planning and management needed improvement at all seven

       locations. This control is the foundation of an entity’s security control structure and a

       reflection of senior management’s commitment to addressing security risks. It is intended

       to ensure that security controls are adequate, consistently applied, and monitored, and that

       responsibilities are clear and properly implemented.



2.     Access controls for both operating systems and the financial management systems needed

       strengthening at all seven locations, and monitoring of external and internal access to

       systems needed strengthening at five locations. These controls should limit or monitor

       access to computer resources to guard against unauthorized modification, loss, and

       disclosure.



                                                 9
3.     Applications software development and change control needed improvement at four

       locations. These controls should help prevent the implementation of unauthorized

       programs or modifications to existing programs.



4.     Systems software improvements were needed at four locations. Controls in this area

       should limit and monitor access to the important software programs that operate computer

       hardware.



5.     Segregation of duties improvements were needed at five locations. Appropriate controls

       in this area include policies, procedures, and an organizational structure to prevent one

       individual from controlling key aspects of computer-related operations, thus deterring

       unauthorized actions or access to assets.



6.     To ensure service continuity, contingency plans needed to be prepared, updated, or

       improved at all seven locations. Appropriate controls in this area include procedures for

       continuing critical operations, without interruption and with prompt resumption of those

       operations, when unexpected events occur.



Of particular note, among the weaknesses identified by the CPA firms in the area of entitywide

security program planning and management, was the fact that formal comprehensive security

plans either did not exist, were outdated, or were not approved for the major financial

management systems and associated general support systems on which the applications were

processed. In addition, risk assessments needed to be completed and approved, and security

monitoring needed to be performed.



                                                10
At four locations, penetration testing was also performed on the network that supports the

financial management systems to identify weaknesses in access controls. As part of the

penetration testing, the CPA firms reviewed the adequacy of access controls, which include

logical and physical controls. Logical access controls involve the use of computer hardware and

software to prevent or detect unauthorized access, such as by hackers, to networks, systems, and

sensitive files by requiring users to input user ID numbers, passwords, and other identifiers that

are linked to predetermined access privileges. Physical controls involve keeping computers in

locked rooms to limit physical access. The firms’ penetration testing of logical controls found

that in some cases:



•      Open modems and ports were accessible to potential hackers.

•      Sensitive information on websites was readily accessible.

•      Sensitive active system services could allow unauthorized access, downloading of files,

       and gathering of information.

•      Firewall configurations could allow a hacker to introduce a destructive virus.



In addition, physical access controls over networks and financial management systems needed

strengthening. For example, at one location, automated exterior locking systems had not been

installed on doors to restrict access, and the key card lock for the data center’s computer room

was inappropriately placed on the inside of the door, rather than the outside. In addition,

personnel did not consistently lock and secure their work areas. At another location, hardware

that processed very sensitive information was located in an area accessible by numerous

employees and contractors and was not segregated in an individually secure area.




                                                11
For fiscal year 2000, the CPA firms concluded that four operating units had system security

weaknesses that rose to the level of “reportable conditions.” Taken together, these conditions,

combined with the Department’s lack of an integrated financial management system, constituted

a material weakness in the audit of the consolidated financial statements. In our report on the

audit of the consolidated statements, we recommended that the CIO’s office continue to develop

and implement a database for tracking and reporting on corrective actions planned and taken to

address the outstanding general controls recommendations. We also recommended that the

office review, monitor, and provide guidance to the reporting entities on their corrective actions

planned and taken in response to our current and prior years’ audit reports on general controls.



We issued audit reports with recommendations to correct the control weaknesses identified at

each of the seven data processing locations, and the operating units generally agreed with our

recommendations. The Department and its operating units are required to provide us with audit

action plans that address each of our recommendations. We have reviewed the plans submitted

to date and concur with the actions taken or planned. Moreover, we are in the process of

performing our annual follow-up of the adequacy of the corrective actions planned or taken.



IT Security Issues Have Also Been Identified

Through OIG Inspections and Investigations



We have also identified IT security issues through our inspections and investigative work. Our

inspections unit, for example, conducted a 1999 assessment of the Bureau of Export

Administration’s (BXA) Export Control Automated Support System as part of a larger review of

BXA’s administration of the federal export licensing process for dual-use commodities. While

we determined that most of the system’s general and application controls were adequate, we

                                                12
found that BXA’s IT security controls could be enhanced by improving database access controls,

preparing a security plan, performing periodic security reviews, officially assigning the security

duties to its security officer, providing all users with current security training, and restricting the

number of BXA employees with file manager access. BXA management implemented some

corrective actions immediately and agreed to take action on our other recommendations dealing

with the IT security of its licensing system.



We are also conducting a series of inspections of the National Weather Service’s weather

forecast offices (WFOs) that have identified a number of IT security issues that need to be

addressed by local managers. Among other problems, we noted that one WFO we visited did not

have a designated security officer, and office personnel did not follow the Weather Service’s

policy on IT security. We found other problems, which I cannot describe in detail in a public

hearing, that highlight how vulnerable some systems can be without proper management

attention. Fortunately, the Weather Service has greatly improved its IT security both locally and

nationally since the start of our review. During the past nine months, we visited two other

WFOs. Although we continued to identify some IT security problems, we have found that

designated security officers have been named and are receiving necessary training on IT security.

More importantly, WFO personnel appear to better understand IT security concepts and

requirements.



IT security problems have also been identified through our investigative work. Through our OIG

Hotline and other information channels, specific incidents or allegations involving IT security

weaknesses, vulnerabilities, or threats have been brought to our attention and examined. For

example:



                                                   13
•      In one incident, a foreign hacker penetrated a network server and installed software

       without the knowledge of the system administrator. Had the software been activated, the

       server would have been prevented from performing its normal network services and

       would have been one of many computers simultaneously activated to overload a

       designated Internet site. As a result of the incident, the number of points of access to the

       network was reduced to a bare minimum, and existing monitoring software was activated.



•      In another incident, a hacker caused extensive damage to an operating unit server, and it

       took more than 5 work days to repair the server and restore operations. Because the

       software on the server was destroyed, the system administrator was not able to determine

       how the attack had occurred. Security features were added when the software was

       restored, to reduce the risk of another shutdown.



•      In a third incident, an after-hours contract cleaning employee used a computer that had

       not been properly secured to gain access to the Internet via a network system and view

       pornographic materials. Coordination with the contracting officer, property manager, and

       president of the contract company resulted in the employee’s immediate removal from the

       facility contract and subsequent termination. In addition, the practice of routinely leaving

       the computer on overnight was discontinued.



Additional OIG Reviews of IT Security Matters

Are Either Underway or Planned



We are currently conducting IT security evaluations related to (1) the Economics and Statistics

Administration’s and the Census Bureau’s preparation and release of the Advance Retail Sales

                                                14
Principal Economic Indicator, (2) the Department’s classified information systems, and (3) the

Department’s IT security program and practices, as required by the Government Information

Security Reform Act.



The objective of our security evaluation of the Advance Retail Sales indicator is to determine

whether adequate internal controls and system safeguards are in place to prevent the

unauthorized disclosure or use of the economic indicator data before its release to the public. We

have found that employees dealing with the indicator do not always have appropriate background

investigations and that their positions are not always assigned the appropriate level of risk as

required by Title 5, Part 731, of the Code of Federal Regulations and OMB Circular A-130. In

some instances, the Department’s records did not identify the type of investigation done, if any,

for personnel working on Principal Economic Indicators. We also noted a lack of guidance from

the Office of Human Resources Management, as well as from the Office of Security, suggesting

that the problems associated with assigning appropriate risk levels to positions and ensuring that

background investigations are performed may exist throughout Commerce. We are conducting

additional work to examine this issue.



Our review of the Department’s classified information systems will assess the adequacy of its

policies for protecting classified information and the effectiveness of its oversight of these

systems.



The GISRA-mandated review is the annual evaluation of the Department’s IT security program

and practices. This evaluation will incorporate information from our security reviews, as well as

results of related evaluations performed by operating units, GAO, and contractors. We are also

continuing our security reviews of Commerce’s financial management systems and related

                                                 15
networks as part of our fiscal year 2001 financial statements audits. These reviews will be in line

with our IT security review strategy and will include penetration testing of the U.S. Patent and

Trademark Office and FISCAM reviews for the other operating units.



The need for the OIG to provide oversight and evaluation of IT security will be increasingly

critical in the coming years. Our independent evaluation of the Department’s IT security

program being performed under GISRA and our security reviews of the Department’s financial

management systems show that although the Department is giving greater attention to IT

security, serious issues remain to be resolved. These issues appear to be the result of an earlier

lack of attention to IT security, limited resources, and an environment in which the risks, threats,

and vulnerabilities have continued to escalate in number and complexity. The weaknesses

identified by GAO’s recent network vulnerability analysis of the Department underscore our

concerns.



In our independent GISRA evaluation for the next fiscal year, we plan to evaluate the

effectiveness of operating unit IT security programs and to conduct security evaluations of

specific general support systems and major applications. We will use the findings of our current

GISRA evaluation and of GAO’s security audit to assist us in identifying specific operating units,

general support systems, and major applications to evaluate in the future.



Cooperative Efforts Needed to Address

IT Security Weaknesses



I am pleased to note that, just last month, my office entered into a memorandum of agreement

with the Department’s Office of the CIO and Office of Security to define our respective roles and

                                                 16
responsibilities relating to the development, implementation, and management of the Commerce

IT security program. This agreement is intended to promote a partnership among the three

offices that both ensures complete coverage of IT security matters and prevents wasteful

duplication of effort.



Under the agreement, the CIO’s office has the basic responsibility for developing and

implementing the Commerce-wide IT security program, which includes developing IT security

policies and procedures, promoting IT security awareness and training, serving as the

Department’s critical infrastructure assurance officer, and convening a meeting of the incident

response group when incidents or intrusions occur. Commerce’s Office of Security has the

primary responsibility for security for the Department’s classified systems and, in conjunction

with the Department of State, for IT security at Commerce overseas posts. My office is

responsible for conducting investigations of IT incidents and intrusions, and for conducting

reviews of the Department’s IT security program and individual systems, including the annual

independent evaluations of the program required by GISRA.



In closing, it is clear that cooperative, continuous, and concerted efforts are needed by each of

us—and I mean each of us—if we are to address IT security weaknesses. These efforts are

needed if we are to have any chance of staying at least one step ahead of the hackers and others

that see IT security as some sort of cat-and-mouse game.



I am confident that the senior management of the Department and its operating units increasingly

recognize the need to take a proactive approach to do this. For example, the Secretary’s recent

directive increasing the authority of operating unit CIOs and making them a more integral part of

the management team is an important initiative. Likewise, the recent appointment of a Senior

                                                 17
Advisor to the Secretary for Privacy should be instrumental in addressing such issues as cookies,

web bugs, and other security/privacy matters. And program officials are also being strongly

reminded that they too have key IT security responsibilities and need to work closely with

operating unit CIOs and security officials to ensure an effective security program.



We intend to continue our partnership with all of these managers by identifying weaknesses and

potential vulnerabilities in IT security and by searching for ways to improve it. Through this

relationship, I believe we can help strengthen IT security within the Department.



                             ˜        ˜         ˜         ˜         ˜


This concludes my statement. A list highlighting some of the reports we have issued that address

IT security issues is included as an attachment. Mr. Chairman, I would be happy to answer any

questions you or other members of the Committee might have.




                                                18
                                                                                    ATTACHMENT

                           U.S. Department of Commerce
                            Office of Inspector General
                  Recent Audit, Inspection, and Evaluation Reports
                    on Information Technology Security Matters

                                            Evaluations
1      Office of the Chief Information Officer: Use of Internet “Cookies” and “Web Bugs” on
       Commerce Web Sites Raises Privacy and Security Concerns, OSE-14257, April 2001
2      Office of the Chief Information Officer: Additional Focus Needed on Information
       Technology Security Policy and Oversight, OSE-13573, March 2001
3      Office of the Chief Information Officer: Critical Infrastructure Protection: Early
       Strides Were Made, but Planning and Implementation Have Slowed, OSE-12680, August
       2000
4      Bureau of the Census: Computer Security for Transmission of Sensitive Data Should Be
       Strengthened, OSE-10773, September 1998

                                  Financial Statements Audits
    [Note: These audits are performed annually; listed below are only the reports covering FY 2000.
           In addition, the reports on security reviews are not publicly available documents.]

5      Department of Commerce: Consolidated Financial Statements, FY 2000, FSD-12849-1,
       March 2001
6      National Institute of Standards and Technology, Improvements Needed in the General
       Controls Associated with Financial Management Systems, FSD-12859-1, February 2001
7      Economic Development Administration, Improvements Needed in the General Controls
       Associated with Financial Management Systems, FSD-12851-1, January 2001
8      Bureau of the Census, Improvements Needed in the General Controls Associated with
       Financial Management Systems, FSD-12850-1, January 2001
9      National Technical Information Service, Improvements Needed in the General Controls
       Associated with Financial Management Systems, FSD-12857-1, January 2001
10     Office of the Secretary, Follow-up Review of the General Controls Associated with the
       Office of Computer Services/Financial Accounting and Reporting System, FSD-12852-1,
       January 2001
11     International Trade Administration, Review of General and Application System Controls
       Associated with the Fiscal Year 2000 Financial Statements, FSD-12854-1, January 2001



                                                  19
12   National Oceanic and Atmospheric Administration, Improvements Needed in the
     General Controls Associated with Financial Management Systems, FSD-12855-1,
     December 2000
13   United States Patent and Trademark Office, Improvements Needed in the General
     Controls Associated with Financial Management Systems, FSD-12858-1, December
     2000

                                       Inspections
14   National Oceanic and Atmospheric Administration: San Angelo Weather Forecast
     Office Performs Its Core Responsibilities Well, but Office Management and Regional
     Oversight Need Improvement, IPE-13531, June 2001
15   National Oceanic and Atmospheric Administration: Raleigh Weather Forecast Office
     Provides Valuable Services, but Needs Improved Management and Internal Controls,
     IPE-12661, September 2000
16   Bureau of Export Administration: Improvements Are Needed to Meet the Export
     Licensing Requirements of the 21st Century, IPE-11488, June 1999
17   Office of Security: Vulnerabilities in the Department’s Classified Tracking System Need
     to Be Corrected, IPE-11630, March 1999




                                            20
